<html>
<title> - MARK-UP ON H. RES. 169, EXPRESSING THE SENSE OF THE HOUSE OF REPRESENTATIVES WITH RESPECT TO DEMOCRACY, FREE ELECTIONS, AND HUMAN RIGHTS IN THE LAO PEOPLE'S DEMOCRACTIC REPUBLIC; H. CON. RES. 200, EXPRESSING THE STRONG OPPOSITION OF CONGRESS TO THE MILITARY COUP IN PAKISTAN AND CALLING FOR A CIVILIAN, DEMOCRATICALLY-ELECTED GOVERNMENT TO BE RETURNED TO POWER IN PAKISTAN; AND H. CON. RES. 211, EXPRESSING THE STRONG SUPPORT OF THE CONGRESS FOR THE RECENTLY CONCLUDED ELECTIONS IN THE REPUBLIC OF INDIA AND URGING THE PRESIDENT TO TRAVEL TO INDIA</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
     MARK-UP ON H. RES. 169, EXPRESSING THE SENSE OF THE HOUSE OF 
 REPRESENTATIVES WITH RESPECT TO DEMOCRACY, FREE ELECTIONS, AND HUMAN 
  RIGHTS IN THE LAO PEOPLE'S DEMOCRACTIC REPUBLIC; H. CON. RES. 200, 
 EXPRESSING THE STRONG OPPOSITION OF CONGRESS TO THE MILITARY COUP IN 
PAKISTAN AND CALLING FOR A CIVILIAN, DEMOCRATICALLY-ELECTED GOVERNMENT 
 TO BE RETURNED TO POWER IN PAKISTAN; AND H. CON. RES. 211, EXPRESSING 
THE STRONG SUPPORT OF THE CONGRESS FOR THE RECENTLY CONCLUDED ELECTIONS 
  IN THE REPUBLIC OF INDIA AND URGING THE PRESIDENT TO TRAVEL TO INDIA

=======================================================================

                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   ON

                               __________

                            OCTOBER 27, 1999

                               __________

                           Serial No. 106-63

                               __________

    Printed for the use of the Committee on International Relations





                     U.S. GOVERNMENT PRINTING OFFICE
60-800 CC                    WASHINGTON : 1999




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                  Subcommittee on Asia and the Pacific

                   DOUG BEREUTER, Nebraska, Chairman
JAMES A. LEACH, Iowa                 TOM LANTOS, California
DANA ROHRABACHER, California         HOWARD L. BERMAN, California
PETER T. KING, New York              ENI F.H. FALEOMAVAEGA, American 
MARK SANFORD, South Carolina             Samoa
JOHN McHUGH, New York                MATTHEW G. MARTINEZ, California
RICHARD BURR, North Carolina         SHERROD BROWN, Ohio
PAUL GILLMOR, Ohio                   ROBERT WEXLER, Florida
DONALD A. MANZULLO, Illinois         JIM DAVIS, Florida
EDWARD R. ROYCE, California          EARL POMEROY, North Dakota
JOHN COOKSEY, Louisiana              GARY L. ACKERMAN, New York
MATT SALMON, Arizona                 ALCEE L. HASTINGS, Florida
             Michael P. Ennis, Subcommittee Staff Director
         Dr. Robert King, Democratic Professional Staff Member
                         Matt Reynolds, Counsel
                  Alicia A. O'Donnell, Staff Associate




                            C O N T E N T S

                              ----------                              

                                APPENDIX

                                                                   Page

Prepared Statement:

Hon. Sherrod Brown, a Representative in Congress from the State 
  of Ohio........................................................    41
Hon. Matthew G. Martinez, A Representative in Congress from the 
  State of California............................................    42

Bills and Amendments:

H. Res. 169......................................................    18
Amendment in the Nature of a Substitute to H. Res. 169 offered by 
  Mr. Bereuter...................................................    26
H. Con. Res 211..................................................    29
Amendment to the Amendment in the Nature of a Substitute to H. 
  Con. Res. 200 offered by Mr. Bereuter..........................    31
H. Con. Res 200..................................................    32
Amendment in the Nature of a Substitute to H. Con. Res. 200 
  offered by Mr. Bereuter........................................    37

Additional materials for the Record

Testimony of Philip Smith, Director of the Lao Veterans of 
  America submitted by Mr. Rohrabacher...........................    21


     MARK-UP ON H. RES. 169, H. CON. RES. 200, AND H. CON. RES. 211

                              ----------                              


                      Wednesday, October 27, 1999

                   House of Representatives
              Subcommittee on Asia and the Pacific,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 1:30 p.m., in 
room 2255, Rayburn House Office Building, Hon. Doug Bereuter 
(Chairman of the Subcommittee) presiding.
    Mr. Bereuter. The Subcommittee will come to order. We meet 
in session to consider two, possibly three resolutions today. 
The first is H. Res. 169, a resolution regarding democracy, 
free elections and human rights in the Lao People's Democratic 
Republic. Then, the Subcommittee will review the H. Con. Res. 
211, a resolution introduced by Mr. Ackerman addressing the 
recent elections in India. Possibly, if we get things in order, 
we will consider H. Con. Res. 200, a resolution related to a 
military coup in Pakistan.
    I would point out to my Democratic colleagues that all 
three resolutions have lead Democratic sponsors.
    The first order of business will be H. Res. 169 which the 
clerk will report H. Res. 169.
    The Clerk. H. Res. 169, Expressing the sense of the House 
of Representatives with respect to democracy, free elections, 
and human rights in the Lao People's Democratic Republic.
    [The Resolution H. Res 169 appears in the appendix.]
    Mr. Bereuter. Without objection for the reading of the 
resolution will be dispensed with, printed in the record in 
full, and open for amendments. The resolution was introduced on 
May 13, 1999, by our colleague from Minnesota, Mr. Vento and 
was referred to the Subcommittee on Asia and the Pacific.
    Before we begin the formal process of considering the 
resolution, the Chair has a few comments about the resolution. 
I would then recognize the Ranking Member or another Member on 
the minority side for any comments that they might like to 
offer about this legislation.
    This resolution simply expresses the sense of the House of 
Representatives with respect to democracy, free elections and 
human rights in Laos. The people of Laos, especially the Lao 
Hmong, continue to experience gross violations of fundamental 
human rights at the hands of the communist Lao regime.
    House Resolution 169 calls upon the Laotian Government to 
respect international norms for the protection of human rights 
and democratic freedoms, to issue a public statement 
reaffirming its commitment to protecting religious freedoms and 
basic human rights, to fully institute a process of democracy 
with open, free and fair elections, and to allow access for 
international human rights monitors, including the 
International Committee of the Red Cross and Amnesty 
International, to visit inside Lao prisons and to all regions 
within Laos to investigate allegations of human rights abuses.
    The Chair urges approval of H. Res. 169. I will shortly be 
offering an amendment in the nature of a substitute that has 
been agreed upon by the resolution's author. However, first I 
call upon the Ranking Democrat or anyone on the Democratic side 
since Mr. Lantos will be a few minutes late.
    Is there anyone who would like to speak on the resolution?
    Mr. Ackerman. Good job, Mr. Chairman.
     Mr. Bereuter. Thank you. Is there further discussion?
     Mr. Rohrabacher. Would you like me to get this over with 
right now?
    Mr. Bereuter. What is it?
    Mr. Rohrabacher. It is a statement about this, but it is 
maybe not essential that Mr. Lantos hear this, so if we are 
waiting for Mr. Lantos, I will just----
    Mr. Bereuter. All right. Proceed.
    Mr. Rohrabacher. Thank you. Mr. Chairman, today as we 
consider H. Res. 169, expressing the sense of the House with 
respect to democracy and, human rights in the Lao People's 
Democratic Republic--boy, that is a mouthful of words there, is 
not it?--I believe it is absolutely essential for the 
Subcommittee to be aware of a troubling recent development in 
Laos.
    I am referring to specifically the cases of Houa Ly and 
Michael Vang, American citizens who have been missing in Laos 
for over 6 months. These two American men disappeared near the 
border between Thailand Laos on April 19th and have not been 
heard from since. According to American eyewitnesses, they were 
last seen under the control of Lao Government authorities.
    The evidence I have seen and heard from, including the 
American eyewitnesses from congressional research missions 
undertaken by Chairman Gilman's staff, from nongovernmental 
organizations, and from the families of the two men all 
convince me that these men were abducted by the Lao Government.
    Families of these two men were here in Washington just 2 
weeks ago and testified before the Congressional Human Rights 
Caucus meeting, and they pleaded, their eyes were filled with 
tears, for us to help them to find their husbands and their 
fathers. A State Department investigation conducted 
cooperatively with that same Lao Government that seized the men 
has surprisingly not turned up anything.
    Unbelievably, these American families were forced to file a 
formal Freedom of Information Act request in order to get the 
information from the State Department that it already knew 
about the circumstances of this situation.
    Even as we speak, they continue to wait for information. 
This is an unbelievable and inexcusable situation, Mr. 
Chairman, and it cannot go on. We have certainly a duty to try 
to do something about it.
    I happen to believe this goes to the heart of how American 
citizens can expect to be protected by their government. We 
cannot set up a two-tier class of protection for American 
citizens where an American citizen of a country that is under a 
dictatorial rule has the different type of protections or 
different level of protection than an American citizen who was 
born in the United States. These people are citizens and 
deserve the utmost protection of their government.
    Because of these developments I am urging this Committee to 
take up H. Res. 332 which condemns the Laotian regime for this 
abduction and let me say that perhaps we can work out a 
situation where I might be able to put together an amendment 
for the bill we are discussing today that could be submitted in 
Full Committee that would take care of the Committee taking the 
official position on the abduction of American citizens.
    [The prepared statement of Mr. Philip Smith appears in the 
appendix.]
    Mr. Bereuter. Thank you, Mr. Rohrabacher. I am familiar 
with this issue and the circumstances, and I have additional 
information on that subject which is not generally available. I 
will make it available to the gentleman. I also have visited 
with Mr. Green from Wisconsin about it. He, I believe, is the 
Congressman of one of the two Americans who was abducted, and I 
know that the gentleman from Wisconsin would like to move 
separate legislation if we can work out some details.
    Mr. Rohrabacher. Whichever is best for the Chairman, that 
would be fine with me. Separate legislation or an amendment to 
this one----
    Mr. Bereuter. Mr. Green has his preference, and you and I 
might talk about that.
    Mr. Rohrabacher. OK.
    Mr. Bereuter. Thank you. I do have an amendment which as I 
mentioned has been agreed to and supported to by the lead 
sponsor, Mr. Vento. The Clerk will report the amendment in the 
nature of a substitute.
    [The amendment of Mr. Bereuter appears in the appendix.]
    The Clerk. The amendment in the nature of a substitute to 
H. Res. 169 offered by Mr. Bereuter, amend the preamble to read 
as follows: Whereas since the 1975 overthrow----
    Mr. Bereuter. Without objection, the amendment will be 
considered as read.
    The amendment before the Subcommittee incorporates a number 
of minor technical revisions that have been raised by the 
Department of State and other sources. For example, some of the 
international conventions which Laos has adopted have been 
listed in this substitute. The name of the ruling party in Laos 
has been corrected, and some language providing more 
specificity to reports of human rights abuses has been added. I 
think it strengthens the resolution in that respect.
    Are there comments or is there debate on the proposed 
amendment in the nature of substitute? The gentleman from New 
York.
    Mr. Ackerman. An improvement on an already recognized good 
job, Mr. Chairman.
    Mr. Bereuter. Thank you. The question then is on the 
adoption of the amendment. Members who are in favor will say 
aye. Aye. Members opposed will say no. The ayes appear to have 
it. The ayes do have it. The amendment is agreed to.
    Are there further amendments to the resolution? If there 
are no further amendments, the question occurs on agreeing to 
the bill, as amended.
    Members who are in favor will say aye. Aye. Members who are 
opposed will say no.
     The ayes have it, and the resolution, as amended, is 
agreed to.
    Without objection, the staff is authorized to make 
technical, grammatical, and conforming changes to the text just 
agreed to H. Con. Res. 211.
    Mr. Bereuter. I would like now, unless the Senior 
Democratic Member has a concern about timing, to go first to 
the India resolution if you have no objections.
    I want to then reverse the order of the call, and we will 
take up H. Con. Res. 211, a resolution regarding the election 
in India. This is House Con. Res. 211. The Clerk will read.
    The Clerk. House Con. Res. 211, Expressing the strong 
support of the Congress for the recently concluded elections in 
the Republic of India and urging the President to travel to 
India, whereas the republic of India is a long-standing 
parliamentary----
    [The Resolution H. Con. Res. 211 appears in the appendix.]
    Mr. Bereuter. Without objection, the reading of the bill 
will be dispensed with, printed in the record in full, and open 
for amendment.
    H. Con. Res. 211 was just introduced by our Subcommittee 
colleague, Mr. Ackerman. Over 350 million Indians voted in a 
lengthy five-phase election process that lasted from early 
September until early October. It resulted in the return of the 
BJP coalition to power with 303 of the 543 seats in the 
Parliament.
    Thus, Prime Minister Vajpayee returns at the helm of a 
large and more reliable coalition. There are many things one 
could say about democracy in India. It is raucous. It is loud. 
It is sometimes violent. It is uniquely Indian.
    A recent survey in The Economist revealed these interesting 
and impressive statistics: 63 percent of Indians believe their 
vote matters; 22 percent of Indians actually participate in 
political rallies or in election meetings before the election; 
and faith and democracy seems to be strongest in the lower 
economic classes which are more likely to vote than the upper 
economic class Indians.
    Certainly India deserves accommodation for the way it 
conducted its elections. It is a major logistical undertaking. 
We look forward to working with the new government, and I have 
personally wished it well as it tackles the enormous task 
before it.
    I would like now to call upon the author of the resolution 
for comments that he would like to make to explain the 
resolution.
    Mr. Ackerman. Thank you, Mr. Chairman. Let me thank you and 
your staff and the Subcommittee for working with me in 
considering our resolution this afternoon. I want to thank Mr. 
Gejdenson and Mr. Lantos as well, for cosponsoring the 
resolution.
    The resolution, Mr. Chairman, recognizes the Indian peoples 
abiding commitment to democracy and salutes them for the 
passion with which they choose their own destiny. No country 
reflects our own values more in that part of the world than 
does India. It is high time we seriously begin to recognize 
this fact and graduate from the mere platitudes to some 
tangible policy changes toward this government.
    I believe that it is time to reexamine our basic premise 
regarding U.S.-India policy in South Asia. We should abandon 
the old paradigms and cold war hang-ups and see that India, the 
democracy, is our natural ally in the region. The best way to 
demonstrate our commitment to the people of India is by 
insuring that the President travels to India as soon as 
possible and I want to thank you very much, again, for 
scheduling this in such a prompt fashion, Mr. Chairman.
    Mr. Bereuter. Thank you, Mr. Ackerman, for your initiative. 
Are there other members who would like to comment upon the 
resolution before us?
    Mr. Gejdenson. Mr. Chairman?
    Mr. Bereuter. Yes.
    Mr. Gejdenson. Just briefly, I want to commend the 
Committee for taking this up. All too often we fail to 
recognize that India, the most populous democracy in the world, 
has done such a spectacular job in maintaining its democratic 
institutions.
    As someone raised in Connecticut, I have great pride that 
Ambassador Chester Bowles, in two terms in India, really helped 
develop a solid relationship between India and the United 
States and while oftentimes it is the relationship between 
India and Pakistan and China that is America's focus, the 
relationship directly between India and the United States, both 
politically and economically, is one of the most important 
relationships I think we have and when you take a look at India 
with almost a quarter of a billion middle class well-educated 
and very talented people, and large work force available, it 
is, I think, both potentially our greatest economic opportunity 
and our greatest economic competitor. It is important for us to 
focus on that relationship for all those reasons and I commend 
the Committee for taking this up today.
    Mr. Bereuter. Thank you, Mr. Gejdenson. Are there further 
comments about the resolution before us? Mr. Rohrabacher?
    Mr. Rohrabacher. I think it is a good resolution and I 
would just say that India is certainly now in a position to 
become one of America's great friends and this was not--
however, I would differ with Mr. Ackerman's assessment in past 
history. Our complaints against India in the past were not cold 
war hang-ups.
    India voted against us consistently in the United Nations 
and was everything but an ally of the Soviet Union during the 
cold war. However, the cold war is over, and, as far as I can 
see, the stability that is reflected in these elections should 
be commended by this Congress. The fact is they have had 
tremendous progress in India, and India has shed some of its 
past socialist beliefs, I believe that hindered India's 
economic progress and today. The Indian economy is doing much 
better and has much greater potential than it did.
    I would think it would be much better for American business 
interests to look at India, the stability there, the democracy 
there, and the fundamental institutions that are at play than 
to look at Communist China as a place to put their money and 
put their investment.
    All countries will be competitors in a world marketplace. 
However, India offers a great opportunity for America to become 
better involved and if we can get over this darn Kashmir issue, 
which I think is the heart of the problem that creates this 
problem in South Asia, I think that we would find that India 
would become a very great friend of the United States and a 
true friend of democracy. We could even further our 
relationship more than what we have had in the past and more 
than where we are right now. And so I think this is a good 
resolution, and it is a good step. We should recognize progress 
they have had there.
    Will the Chairman yield? I would like to yield to Mr. 
Ackerman.
    Mr. Bereuter. Sure, I would be happy to.
    Mr. Ackerman. I thank the gentleman for his general 
concurrence with my point of view which proves only that even 
when we agree we can quibble. I do not believe that India has 
ever voted against us in the United Nations. I do not believe 
there has ever been a vote in the United Nations for us or 
against us for India to have participated in one way or the 
other. As a matter of fact, at least 75 percent of the work 
that the U.N. does is arrived at by consensus which means India 
as well as everybody else agrees. There are some procedural 
votes, of course, by which we find India, as well as others, 
who do vote differently than we do. That does not mean that 
they are against us. And it does not mean that we are against 
them. Certainly, democracies have a right to see and view 
things in different ways.
    As far as holding on to the remnants of some socialist 
views, that is the choice of any democracy including some great 
friends such as Great Britain and such as Israel as well as 
others. Being a democracy does not mean that you have to mirror 
everything we in the United States do and to exactly parrot the 
American line. We have some great democracies in this world 
which come to their basic principles and beliefs the same as we 
do by natural and honest means.
    And I do thank the gentlemen for his support and agreement 
and look forward to working with the rest of the Committee as 
we move forward on this.
    Mr. Bereuter. Thank you, Mr. Ackerman and Mr. Rohrabacher. 
Is there anyone who would make further comments? If not, we 
will move to the mandatory process.
    Are there amendments to the resolution? If there are no 
further amendments, the question occurs on agreeing to the 
resolution, as amended.
    Members in favor will say aye. Aye. Members opposed will 
say no.
    The ayes have it. Resolution is agreed to. As the 
resolution is agreed to, I thank the gentleman for working with 
us so carefully on this issue so that we can try to maintain 
positive and improving relationships with India and so that we 
are balanced in our approach.
    Without objection, the staff director is authorized to make 
technical, grammatical, and conforming changes to the text just 
agreed to H. Con. Res. 211
    Mr. Bereuter. The third and final order of business is H. 
Con. Res. 200, a resolution related to the military coup in 
Pakistan. The Clerk will read.
    The Clerk. H. Con. Res. 200 Expressing strong opposition to 
the military coup in Pakistan and calling for a civilian, 
democratically elected government to be returned to power in 
Pakistan.
    [The H. Con. Res 200 appears in the appendix.]
    Mr. Bereuter. Without objection further reading of the bill 
will be dispensed with, printed in the record in full and open 
for amendment.
    H. Con. Res. 200 was introduced on October 19, 1999, by our 
colleague, Mr. Gejdenson. Last week, the Subcommittee held a 
hearing on the military coup in Pakistan, and I think there is 
no need to go into great detail in light of that hearing and of 
all of the attention to this matter and the press. Members, of 
course, are free to discuss this in our discussion period.
    Certainly, the civilian government of Prime Minister Nawaz 
Sharif had great difficulties, but it is entirely appropriate 
to express at least serious concern about the military 
intervention. It is fair to note that military commanders who 
seized power for the good of the state are rarely successful in 
restoring order, and oftentimes they end up, unfortunately, 
having some of the same problems of corruption as the elected 
government they replaced. We hope that is not the case, and I 
personally hope that the transition back to elected leadership 
will be rapid.
    The U.S. can and should want to do everything it can to 
seek a restoration of civilian rule as soon as possible and 
urge the military leaders to set a time table for that civilian 
restoration. At the appropriate time the Chair will offer an 
amendment in the nature of a substitute that has been agreed 
upon by the resolution's author, but first I turn to the 
Ranking Member, Mr. Lantos, and as he is not here, I would turn 
to the author of the resolution, the Ranking Member of the Full 
Committee, Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. One of the traps I 
think people fall into occasionally is that they simply write-
off certain countries as opportunities for democracy. I 
remember as a student visiting friends in Spain at the 
University who told me that Spain was a country where the 
people just could not really have a democratic society. They 
have obviously, and thankfully, been proven wrong as in many of 
the other former non-democratic countries throughout Europe and 
Latin America.
    It is with great dismay that I introduce this resolution on 
Pakistan because I think that while democracy in Pakistan has 
been in a state of struggle for some time, having it snuffed 
out by military coup is not the way to improve democratic 
institutions.
    Two weeks ago, the cause of democracy in Pakistan did 
suffer a mortal blow when the military regime replaced the 
democratically-elected government. I think to say the 
democratic government may have had problems is an assessment 
you can make of many governments, but clearly the solution for 
democratic governments with problems is more democracy, not the 
end of democracy. One of the times we saw a military replace 
one of the democratic regimes they ended up staying for 14-
years.
    Democracy is built by a pattern of repetition. It is built 
by a process of transparency, the rule of law, respect for 
human rights, and the will of the people. And it is a sad irony 
that the President just yesterday signed the Defense 
Appropriation bill which gives them the authority to waive 
sanctions against India and Pakistan and that we are today 
marking up a resolution asking him not to waive at least the 
military aspects of these sanctions against Pakistan.
    But that is exactly what we are doing and we are doing it 
because if we, the strongest democracy in the world, do not 
speak out for democratic institutions, other countries will 
think it appropriate to remove democratic governments when it 
becomes inconvenient or problematic.
    History has proven to us that democratic societies are 
inherently more stable, ultimately more prosperous, and 
inevitably respect both their own citizens and neighboring 
citizens' human rights. Stability and prosperity are two things 
that Pakistan desperately needs. I would call on the generals 
in charge of Pakistan today to quickly return to democratic 
institutions, and until then, we should not have any military 
assistance or sales to Pakistan.
    I want to join with my colleagues, Mr. Lantos, Mr. 
Ackerman, Mr. Gillmor, and another distinguished Member, Mr. 
Pallone from New Jersey, for co-sponsoring the resolution. I 
appreciate the time the Chairman has given me. There are 
responsibilities that bring me back to the House at this point, 
but I want to thank the Chairman for marking this bill up.
    Mr. Bereuter. The gentleman understands that I will have an 
amendment to the substitute.
    Mr. Gejdenson. Well, the gentleman from Connecticut would 
prefer his original language. If we had wanted other language, 
I guess we would have drafted it that way. I appreciate the 
Chairman marking up the bill.
    Mr. Bereuter. I understand.
    Mr. Gejdenson. And I, at least, will not lead an effort, 
not being a member of the Subcommittee, to stop the Chairman.
    Mr. Bereuter. All right. I did not want to do anything 
without the gentleman understanding that I will offer an 
amendment. Thank you. The substitutes I am about to offer has a 
concurrence of Mr. Gejdenson.
    Before we turn to that, however, there are other Members 
who may like to make opening comments--Mr. Cooksey and then Mr. 
Ackerman.
    Mr. Cooksey. Thank you, Mr. Chairman. I, too, am concerned 
about the loss of democracy in Pakistan. Pakistan had been an 
ally of ours for many years during the cold war at a critical 
time and at a critical place geographically when the threat was 
the Soviet Union.
    I could not help but notice that one of the justifications 
for doing this deed that they did when they overthrew the 
government was that they had some problems in this emerging 
democracy with corruption and dishonesty among the politicians.
    The same thing that is going on in Russia right now, which 
is also an emerging democracy, we had some very heated 
discussions the last 2 weeks about Russia. And the same thing 
that goes on in a lot of places where you have a high 
illiteracy and do not seem to have people that are really 
committed to honesty and integrity in government.
    And that occurs in the United States. There was a Governor 
of Arkansas who had to resign last year for some problems like 
this. We have a Governor in my home state of Louisiana that is 
under multiple indictments and is going to trial in January. 
But the difference is that we have the rule of law in our 
country, and when people are guilty of corruption, there is a 
process to take them through. Hopefully that gets them out of 
office and out of government. That process works.
    Unfortunately, the military in Pakistan chose to overthrow 
the government which I think cannot work and will not work in 
this information age, in this period of globalization. I think 
it is a mistake. That said, though, I was struck by an article 
that was in the New York Times yesterday. The brother of the 
new military leader, of Pakistan is a physician in Chicago and 
he was very assuring that his brother is not an overbearing, 
mindless, military dictator. But still, we have got to be 
committed to the rule of law and to democracy because in this 
day and era, those people will not survive.
    So I am concerned about Pakistan. I think they should be--
the leaders should be chastised for overthrowing democracy, but 
I am not ready to throw them out and throw caution to the wind, 
but tell them that they have got to move back to democracy very 
quickly and they have got to do the things that will make that 
country work and then get some people in government and if they 
do not perform, go through the processes that we use where they 
have a judiciary system to handle crooked politicians that 
occur in so many other countries and this country.
    Thank you, Mr. Chairman.
    Mr. Bereuter. Dr. Cooksey, thank you very much.
    Mr. Ackerman?
    Mr. Ackerman. I chuckle, Mr. Chairman. You will see the 
General running for election with posters that say, ``Endorsed 
by my brother in America.'' I ask unanimous consent to put the 
opening statement of Congressman Brown in the record after the 
statements by Members who are here personally making their 
statements.
    Mr. Bereuter. Without objection.
    [The prepared statement of Mr. Brown appears in the 
appendix.]
    Mr. Ackerman. Mr. Chairman, let me commend you and the 
staff of the Subcommittee for the very cooperative manner in 
which you have been conducting the affairs of the panel, and it 
does not go unnoticed that the resolutions today are 
principally sponsored by Democrats and that all of us on the 
Committee feel comfortable enough to commingle on the dias 
rather than sit on opposite sides. I think it is a substantive 
rather than just symbolic.
    Let me also commend Mr. Gejdenson for introducing the 
resolution and my colleague on the Subcommittee, Mr. Lantos, 
for his leadership as well on this measure.
    Mr. Chairman, the resolution is a manifestation of the deep 
anguish many of us feel at the most unfortunate turn of events 
in Pakistan. As the winds of democracy are sweeping through 
much of the developing world, the men in uniform have chosen to 
abort democracy in that country with the barrel of a gun. This 
strangling of democratic principles and values is unacceptable 
to the international community and this murder of democracy 
must be reversed.
    I strongly believe that the Administration will be making a 
great mistake if, in any way, it initiates measures to 
accommodate the military rule simply by citing the supercilious 
argument that there is no alternative in sight.
    The Pakistani people's wishes, their democratic wishes, are 
the real solution. Notwithstanding General Pervez Musharraf's 
moderate words, we should not be lulled into thinking that this 
will be a moderate government. After all, he has suspended the 
constitution and the elected national and provincial 
assemblies. He has dismissed the government, and he has 
declared a state of emergency. He is also the author of 
Pakistan's ill-fated invasion of India last summer.
    I am concerned, as is the Administration, over what we did 
not hear from General Musharraf. We did not hear a clear time 
table for new elections and the reestablishment of democratic 
government. We call upon the Pakistani rulers to immediately 
announce a timetable for the restoration of democracy.
    I believe that we must remain engaged with Pakistan, but 
that we should do so on the side of the Pakistani people. We 
must identify and support democratic elements within Pakistan 
so that the people of Pakistan can enjoy once again their 
democratic rights. The people of Pakistan are not celebrating 
the demise of democracy. They are at best celebrating the 
demise of an allegedly corrupt government.
    And finally, Mr. Chairman, the demise of democracy which I 
think all of us hope is only temporary, spells danger to the 
whole of South Asia. I am especially concerned that the 
military rulers of Pakistan may turn out to be as reckless as 
they have proved to be in aborting democracy in their nation, 
in their dealings with their neighboring democracy, India.
    I strongly support Secretary Albright's call yesterday that 
Pakistan should build confidence with India, pull back its 
forces from the line of control in Kashmir.
    I also urge the Pakistani regime to cutoff its relations 
with the Taliban regime in Afghanistan. No regime in Pakistan 
should have anything to do with the medieval forces of the 
Taliban.
    Mr. Chairman, once again, I thank you for your leadership 
in bringing this resolution up today.
    Mr. Bereuter. Thank you very much, Mr. Ackerman. Are there 
other Members who wish to be recognized? Gentleman from 
California.
    Mr. Rohrabacher. Well, as I reminded the Full Committee at 
a hearing last week, what is happening in Pakistan has been 
predicted for a number of years. I personally predicted it time 
and again saying that if we did not do something about 
Afghanistan that it would bring democracy down in Pakistan. I 
do not know how many times I have expressed that, and the 
chickens are coming home to roost in terms of the policy by the 
U.S. Government that led to this very situation.
    I support the resolution. I support the underlying 
resolution. I support the changes the Chairman will propose.
    We need to express our strong support of democratic 
government, especially in situations like this in South Asia 
where there is such great instability. Unfortunately, this 
Administration has back policies that have led to greater 
instability and now led to this destruction of democracy.
     The drug money alone in Afghanistan is enough to 
destabilize the whole region, and that is what is happening. 
Last year, the opium production in Afghanistan doubled, 
according to the United Nations. That places billions of 
dollars in the hands of evil people in this very poor part of 
the world. Is there any doubt why democracy was then corrupted 
in Pakistan? Yet, for years, we have had a policy by the U.S. 
Government, at the very least it was acquiescing to this 
Taliban dictatorship, and this is not even bringing up, of 
course, the atrocities they commit on women and their own 
people.
     Yes, we need to call for democracy in Pakistan, but we 
also need to be courageous enough--and moral enough--to back 
positive forces in Afghanistan and elsewhere and to support 
policies that will strengthen democracy's chances in countries 
like Pakistan.
    And let me just say this in terms about the resolution 
itself. By the way, let me put on the record we are looking 
forward, and yet to be contacted by the State Department about 
the next batch of documents that will underscore or disprove 
the charges of America's policy toward the Taliban. We are 
foot-dragging.
    But in terms of the underlying legislation we are talking 
about today, we need to come out forthright for democracy. I 
was already contacted, of course, by the representatives of the 
current regime in Pakistan. They have all these great things 
that they want to do and perhaps they are well motivated. 
Perhaps the general's brother really does feel that he is doing 
good things for his country, and I think that he may well be 
highly motivated.
    As the Chairman noted, rarely do we see the elimination of 
democratic institutions and then find a positive result at the 
end. So it is imperative if this General in charge of the 
government in Pakistan now wants reform, it is imperative that 
he gets the support of the people in doing that reform.
    If he does not go to the people directly with a referendum 
and ask the people to have a thumb's up or a thumb's down vote 
on whether or not he can conduct those reforms, he should be 
treated no differently than any other gangster who has taken 
over a country with guns. If he has some kind of a referendum 
that indicates the people of Pakistan wanted this type of 
intervention or to clean up a very desperate situation of 
corruption and chaos in their society, well then, we should 
take a second look.
     But until that referendum, this general is nothing more 
than a clique of people with guns who have assumed power over a 
democratically elected government and deserve this type of 
criticism and this condemnation. So thank you very much, Mr. 
Chairman.
    Mr. Bereuter. Thank you, Mr. Rohrabacher.
    Are there further comments?
    The gentleman from California, Mr. Martinez.
    Mr. Martinez. Well, I do not know that I entirely agree 
with my colleague or not, but I do not entirely disagree with 
him, as far as policies, but I would not blame it all on the 
present Administration. The fact is that for years and years we 
have been dancing with dictators and supporting governments 
that were corrupt and governments that were not really 
democracies. Some that claimed they were democracies, but were 
not really democracies.
    If you think Mexico, where one party has ruled for all the 
years and named every President years before he becomes 
President, has the answer to democracy, then I will eat your 
hat. But the fact is that even in Central and South America 
that have been so close to us, when we ruled so Central 
American countries and we had people occupying them from our 
military here, we did not leave democracies when we left. We 
handpicked strong men that were going to protect our interests 
there. We did not leave democracies. We left dictatorships. I 
do not know how we can reconcile that.
    But in this particular situation here, the general might be 
wanting to do some good here and is talking about coming to a 
democratic election eventually, but he took over a government 
that we were supporting that was absolutely corrupt and we have 
done that in the past. You know, Batista's government was an 
absolute, corrupt government.
    In Nicaragua, it was actually a corrupt government and we 
supported him. Why do you think they were overthrown? Because 
the people finally got fed up of being oppressed and denied 
human rights and everything else and being political prisoners, 
so they rose up. And when they rose up, do you think they were 
friend with us? No, because we supported the governments that 
were in power at the time they were abusing them and the same 
thing goes here.
    There is a lot of corruption in this past government and 
now somebody has stepped up in a copy. I do not abide by a coup 
and I do not think that people should live under a military 
dictatorship, but the fact is that in this instance it may turn 
out to do some good, if it cleans up the corruption.
    I say there are other governments that we ought to be more 
interested in whether we support them or not and what kind of a 
way they are running their government, not just because they 
call themselves a democracy, but whatever they calls 
themselves, because it is not always true. A lot of times they 
are calling themselves a democracy, and it is a misnomer. But 
regardless, I think if this resolution is decrying a military 
takeover, I think we ought to do that.
    I remember before in that little country of Grenada where 
Bishop came up here trying to meet with the Administration or 
anybody that would listen to him because he wanted to develop 
some relationships and try to help his country develop their 
economy and they refused to meet with him because why? He 
leaned left. That was the explanation. He leaned left.
    Well, he went back and because he could not get anywhere 
here, there was a military coup that upset him and killed him, 
in fact, then that was really a left leaning government, worse 
than what we had before. Our students were in danger and 
everything else. We have seemed to botch everything up because 
we do not understand other countries, what is really right for 
them and their country, and what really governments are like in 
those countries. We support the wrong government.
    But I would hope that in this case all we are doing is 
decrying the fact that there was a military coup and that is 
not the way to take over a country or run a country, but that 
we at least give them a chance in this process to maybe move 
back toward democracy and sometimes our statements are so 
strong we paint people into a corner and just out of self-pride 
of their country, they are going to refuse to knuckle under to 
us. So I hope we are doing this in a diplomatic way, a more 
diplomatic way than we have ever done before.
    Thank you, Mr. Chairman. I yield back.
    Mr. Bereuter. Thank you. The gentleman from Florida, Mr. 
Wexler.
    Mr. Wexler. Thank you, Mr. Chairman. I respectfully ask 
that I be recorded in the affirmative in the first two votes. 
Mr Martinez may want the same.
    Mr. Bereuter. Yes, without objection.
    Mr. Martinez. I have a written statement I would like 
submitted for the record.
    Mr. Bereuter. For this resolution?
    Mr. Martinez. Yes.
    Mr. Bereuter. Without objection, that will be the order.
    [The prepared statement of Mr. Martinez appears in the 
appendix.]
    Mr. Bereuter. We will see if it is possible for us to 
complete our work. I have an amendment in the nature of a 
substitute which the Clerk will read.
    The Clerk. Amendment in the nature of a substitute to H. 
Con. Res.----
    Mr. Bereuter. Without objection, the amendment will be 
considered as read.
    [The amendment of Mr. Bereuter appears in the appendix.]
    Mr. Bereuter. This substitute makes only two changes, with 
the concurrence of Mr. Gejdenson. It strikes the prohibition 
against IMET. It calls upon the President to withhold 
consideration of arms or equipment or provision of military 
services until the government is reinstated. That remains in 
the resolution even though a waiver is in the DOD bill, as 
pointed out, which the President has signed in the last several 
days.
    I believe the IMET program gives us good results. It is one 
of the few vehicles we have to help influence the next 
generation of military leaders of, in this case, Pakistan.
    Currently, the total number of noncommissioned and 
commissioned Pakistani officers that are being trained in the 
United States or being trained by the U.S. elsewhere is a grand 
total of two. They are two mid-level officers. I would hate to 
see that small number changed. The gentleman from Connecticut 
agrees with the changes and so that is the entire nature of 
this substitute amendment's content.
    Is there discussion?
    Mr. Rohrabacher. I frankly----
    Mr. Bereuter. The gentleman from California.
    Mr. Rohrabacher--[continuing]. I frankly am going to vote 
against this. I do not think that we should be giving any 
leeway to any regime to any regime that overthrows a democratic 
government, military regime period. So I will vote against 
this.
    Mr. Bereuter. Is there further discussion?
    All those in favor of the amendment in the nature of a 
substitute will say aye. Those who are opposed will say no.
    The ayes appear to have it. The ayes do have it. The 
amendment is agreed to.
    I have a further amendment which I would like to have 
distributed and, while we are doing that, I would say to Mr. 
Ackerman in light of what you said a few minutes ago, if all of 
my colleagues would turn to page 4.
    [The amendment of Mr. Bereuter appears in the appendix.]
    Mr. Bereuter. The gentleman is talking about the time 
table. That strikes me as a good idea, and I just had drafted 
in handwritten form to apply that to subsection 4 on page 4. We 
may not have time to get to that, but it might be something we 
could consider doing in Full Committee. For example, in line 12 
of page 4 after the word ``the'' insert ``immediate release of 
a time table for the''. It will go under restoration of 
democracy and the rule of law. Amendment to the Amendment in 
the Nature of a Substitute.
    Mr. Ackerman. I ask unanimous consent that the staff be 
able to insert this if the amendment successfully passes 
through the Committee.
    Mr. Bereuter. Is there an objection? Hearing none, that 
will be the order.
    The amendment I have before you makes a couple of changes. 
Very frankly, it is suggested and requested by a Member of the 
Full Committee. I happen to agree that it is appropriate. Mr. 
Gejdenson would prefer not to change it. You heard him express 
that. I think I could very succinctly tell you that basically 
where you find the word ``opposition'' expresses, in fact, the 
word ``concern'' is expressed on two different locations, 
perhaps three. Where it calls for the immediate restoration of 
a civilian democratically led government, the amendment simply 
says ``rapid'' since I think ``immediate'' is really out of the 
question. That is the nature of the amendment.
    I think it reflects reality, the loss of civilian control 
in Pakistan was a complicated matter. Restoration to civilian 
control is going to be complicated as well. I think we have 
every right to call for a time table which we have just done. 
That is the purpose of the amendment that I offer and have 
before you. Is there a discussion?
    Mr. Rohrabacher. Mr. Chairman, I am going to vote against 
this. I understand the practical nature. I do not think we 
should give any leeway to a group which staged military 
overthrow of a democratically-elected government. If this 
regime moves forward and gets some sort of plebiscite or 
referendum indicating that they were operating with the will of 
the people, well, that is something else again. But until that 
time we will have to treat this regime in Pakistan like any 
other dictatorship that has overthrown a democratically elected 
government. So I oppose softening it.
    Mr. Bereuter. I agree with the gentleman's sentiment, and I 
do not believe that the amendment I am offering, in fact, sends 
any positive messages to the Pakistanis. It is certainly not my 
intent. I do not, however, think you can ask for immediate 
restoration. Rapid is certainly possible and especially if you 
combine it with the time table which we are now doing.
    Is there further discussion?
    Hearing none, then the vote is on the amendment to the 
substitute.
    All those in favor will say aye. All those opposed will say 
no. The ayes appear to have it. The ayes do have it.
    Are there further amendments to the resolution? If there 
are no further amendments, the question occurs on agreeing to 
the resolution, as amended, as the Members in favor will say 
aye. Those opposed will say no.
    The ayes appear to have it and the resolution, as amended, 
is agreed to without objection. The staff director is 
authorized to make technical, grammatical and conforming 
changes to the text just agreed to.
    I want to thank all of my colleagues in attendance at the 
mark-up today, and the staff for their assistance on both sides 
of the aisle. The Subcommittee stands adjourned.
    [Whereupon, at 2:24 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                            October 27, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] 60800.003
    
    [GRAPHIC] [TIFF OMITTED] 60800.004
    
    [GRAPHIC] [TIFF OMITTED] 60800.005
    
    [GRAPHIC] [TIFF OMITTED] 60800.021
    
    [GRAPHIC] [TIFF OMITTED] 60800.002
    
    [GRAPHIC] [TIFF OMITTED] 60800.002
    
    [GRAPHIC] [TIFF OMITTED] 60800.024
    
    [GRAPHIC] [TIFF OMITTED] 60800.025
    
    [GRAPHIC] [TIFF OMITTED] 60800.006
    
    [GRAPHIC] [TIFF OMITTED] 60800.007
    
    [GRAPHIC] [TIFF OMITTED] 60800.008
    
    [GRAPHIC] [TIFF OMITTED] 60800.009
    
    [GRAPHIC] [TIFF OMITTED] 60800.010
    
    [GRAPHIC] [TIFF OMITTED] 60800.020
    
    [GRAPHIC] [TIFF OMITTED] 60800.011
    
    [GRAPHIC] [TIFF OMITTED] 60800.012
    
    [GRAPHIC] [TIFF OMITTED] 60800.013
    
    [GRAPHIC] [TIFF OMITTED] 60800.014
    
    [GRAPHIC] [TIFF OMITTED] 60800.015
    
    [GRAPHIC] [TIFF OMITTED] 60800.016
    
    [GRAPHIC] [TIFF OMITTED] 60800.017
    
    [GRAPHIC] [TIFF OMITTED] 60800.018
    
    [GRAPHIC] [TIFF OMITTED] 60800.019
    
    [GRAPHIC] [TIFF OMITTED] 60800.001
    
    [GRAPHIC] [TIFF OMITTED] 60800.002
    

</pre></body></html>
